March 24, 2000


MEMORANDUM FOR:                          ANDREW J. SAMET
                                         Deputy Under Secretary


FROM:                                    JOHN J. GETEK
                                         Assistant Inspector General
                                           For Audit

SUBJECT:                                 Final Letter Report No. 17-00-008-01-070
                                         Review of the Bureau of International Labor Affairs

This is to provide you with the final report on the review of the Bureau of International Labor Affairs
(ILAB) by the Office of Inspector General’s (OIG’s) Office of Audit.

The review included areas such as agency mission, strategic and performance planning, budgeting,
organization and staffing, agency functions and activities, performance measurement, working
relationships/communication, and managerial controls. This review was performed in accordance with
the Government Auditing Standards issued by the Comptroller General of the United States. Overall,
we found that ILAB has a highly professional, qualified and dedicated staff and performs a wide variety
of functions related to international labor policies and issues of importance to workers worldwide.

Based on our review, we recommended in the draft report that you take action to improve ILAB’s
mission statement, strategic and performance plans, performance measures, and managerial controls,
especially over grants.

On March 15th, we received ILAB’s response to the draft report which included information
concerning steps ILAB has taken and is planning to take to address the recommendations made. The
issues identified and recommendations made in the draft report, ILAB’s comments, and our conclusions
based on the analysis of ILAB’s comments are presented below. ILAB’s comments, in their entirety,
are attached to this report.
ILAB’s Mission Statement

OIG Concern

The existing mission statement for ILAB is process-oriented and does not focus, as it should, on the
intended and expected outcomes resulting from ILAB operations.

Recommendation

We recommended that the existing mission statement be revised to focus on the outcomes expected to
result from ILAB operations.

ILAB Comments

ILAB provided a revised mission statement in its response which now includes two goals.

OIG Conclusion

The revised mission statement remains process-oriented and does not yet include and emphasize the
outcomes expected to result from ILAB operations. Therefore, we continue to recommend that
ILAB’s mission statement be further improved to be less process-oriented and to focus on the
outcomes expected to result from ILAB operations.

ILAB’s Strategic and Performance Plans and Performance Measures

OIG Concern

The goals and measures contained in ILAB’s current strategic and performance plans do not
adequately represent the many functions that ILAB currently performs or the full compliment of
responsibilities that ILAB currently has.

Recommendation

We recommended that ILAB’s strategic and performance plans be revised to include additional goals
and measures that better represent the wide variety of responsibilities that ILAB has and the many
functions that it performs.




                                                  -2-
ILAB Comments

ILAB noted that it held meetings to incorporate additional goals and measures to better represent the
responsibilities it has and functions it performs. However, these meetings resulted in the development of
plans containing only two broad goal statements reflecting the Secretary’s two ILAB priorities.

OIG Conclusion

We agree that it is appropriate, within the overall Departmental Strategic and Performance Plans, to
include only goals and measures that focus on the Secretary’s two ILAB priorities. However, in
ILAB’s strategic and performance plans, the goals and measures need to represent the responsibilities,
activities and work products of all four ILAB offices as well as the Child Labor Group.

Within ILAB’s FY 2000 plans, we recognize that the activities and work products of the Office of
Foreign Relations, the National Administrative Office and the International Child Labor Group are
included. However, we are unable to detect representation of the activities and work products of the
Office of International Economic Affairs and the Office of International Organizations within these plans.
Therefore, we continue to recommend these plans be improved to include these two important
components of ILAB.

ILAB’s Managerial Controls

OIG Concern

Appropriations for ILAB activities have increased almost sevenfold during the last 2 fiscal years. ILAB
is now responsible for administering substantially larger amounts of grant/contract funds and for
managing additional new grant activities. ILAB’s management structure, managerial controls, evaluation
methods, and the roles and responsibilities of individual staff were not designed to provide adequate
accountability for the current level of funding.

The quality and effectiveness of an organization’s managerial controls determine the level of risk
associated with its activities and operations. They also determine the reliability of information published
on the organization’s financial and performance statements.




                                                    -3-
It is also important to note that ILAB cannot delegate its ultimate responsibility to account for the
quality and effectiveness of policies and procedures for the solicitations for proposals, proposal review,
proper award, distribution, control, evaluation and closeout of its grants and contracts.

Recommendation 1

Therefore, we believe it is important, at this time, for ILAB management to determine how the
increased grant and contracting activities will be accomplished and, specifically, who in ILAB will
accomplish each aspect of the process. The revised policies, procedures, methods and individual
responsibilities, when determined, should be put in writing and distributed to all applicable staff.

ILAB Comments

ILAB has been proactively working with OASAM to strengthen its managerial controls. OASAM’s
Business Operations Center conducted grant/contract orientation for ILAB program managers and
employees. A memorandum of understanding (MOU) has been drafted between ILAB and OASAM
to manage the award and administration of ILAB grants and contracts. ILAB plans to further develop
management controls and to identify individual responsibility for carrying out its procurement processes.
A proposed cooperative agreement between the USDOL and the ILO has been drafted which
specifies management controls designed to ensure that program objectives are timely met and funds are
expended cost-effectively. Special emphasis is now being placed on IPEC to capture performance and
financial information. ILAB plans to hire grants management specialists and to provide GOTR (Grant
Officer Technical Representative) and COTR (Contracting Officer Technical Representative) training.

OIG Conclusion

We appreciate ILAB’s proactive efforts with OASAM to strengthen managerial controls over grant
and contract activities and the development of the draft MOU. After reviewing the draft MOU, we do
have some concerns regarding its content and have forwarded these concerns to both parties. We
would appreciate the opportunity to review the proposed cooperative agreement between the USDOL
and the ILO.

We encourage ILAB’s further development of internal management controls that clearly identify
individual responsibility for executing each phase of the grant and contract processes, and would
appreciate receiving a copy of these control policies and




                                                   -4-
procedures when completed. We would appreciate receiving, when completed, copies of the final
MOU with OASAM, the final cooperative agreement between the USDOL and the ILO, the specific
management controls to be established over the new $20 million Core Labor Standards Program, and
the specific controls now in place over ILAB’s grants in support of the IPEC (International Program for
the Elimination of Child Labor).

We appreciate ILAB’s decision to hire grant and contract management specialists and to provide
GOTR and COTR training for appropriate ILAB staff. At the completion of the GOTR and COTR
training, we would appreciate receiving an after action report on the training and the names and
positions of the participants.

Recommendation 2

As discussed at our meeting on February 14, we recommend that ILAB review, revise and strengthen
its managerial controls over grant/contracting activities, using the attachments to the draft report for
guidance. By stepping back now, and rethinking its management structure, managerial expectations,
managerial controls, evaluation methods, and the roles and responsibilities of individual staff, ILAB can
ensure that the accountability issues inherent in the above-mentioned funding increases are properly
addressed.

ILAB Comments

ILAB, in cooperation with OASAM, is in the process of conducting a comprehensive review of its
internal/external managerial controls and needed action will be taken to establish proper controls at the
completion of this review. ILO officials responsible for financial and grants management, auditing,
budget, and procurement will meet with their DOL counterparts in Washington next month to better
align ILO grants management systems with DOL grant requirements.

OIG Conclusion

We appreciate ILAB’s comprehensive review of its internal and external management controls and its
discussions with the ILO to improve the alignment of ILO grant management procedures and systems
with DOL grant management requirements.

This review should be conducted with care and allow sufficient time to thoroughly analyze ILAB’s risks
and vulnerabilities. The review of ILAB-ILO relationships and




                                                   -5-
coordination mechanisms should be made with the same care and timeliness. We would appreciate
receiving copies of the final report, including the conclusions reached, on the comprehensive review of
ILAB’s internal and external management controls, as well as the final report, with conclusions, on the
review of the ILAB-ILO relationships and the alignment of ILO grant management processes and
systems with DOL grant requirements.

Because we provided current guidance regarding general management controls as well as management
controls over grant and contracting activities as attachments to the draft report, we are not forwarding
these guidelines again with this final report. The guidance provided with the draft report is summarized
below.

Attachment 1 provided an outline of the Revised Standards for Internal Control in the Federal
Government issued by the General Accounting Office (GAO). These standards represent the basic and
fundamental general managerial controls that should be in place in each Federal entity. The actual
standards were provided in Attachment 2. Attachment 3 provided a summary of the Department of
Labor (DOL) Manual Series chapters that relate to contract and grant management. Attachment 4
provided an outline of the draft Grant Financial System Requirements to be issued shortly by the Joint
Financial Management Improvement Program (JFMIP). The JFMIP has determined that all grant
financial systems must meet, as a minimum, the requirements contained in that publication. The draft
system requirements were provided in Attachment 5.

Since these are the types of managerial controls that we would look for in an audit, we trust that these
attachments were helpful to you in making improvements to ILAB’s management controls over grant
and contract activities.

---------------------------------------------------------
We appreciate the assistance and cooperation of you and your staff during this review. We are ready
and available to assist you in taking any additional steps you deem necessary to ensure the integrity of
ILAB’s grant and contract processes.

                                      Click here to get Attachment




                                                   -6-
